Scott S. Harris
March 11, 2020
Page 2

HERBERT H. SLATERY III
ATTORNEY GENERAL AND REPORTER
P.O. BOX 20207, NASHVILLE, TN 37202
TELEPHONE (615)741-3491
FACSIMILE (615)741-2009

March 11, 2020

Via E-Filing and Federal Express
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Angela Hamm, et al. v. State of Tennessee, No. 19-1059

Dear Mr. Harris,
Pursuant to Supreme Court Rule 30.4, the State of Tennessee
respectfully requests an extension of 28 days, to and including April 24, 2020,
within which to file its response to the petition for a writ of certiorari in Hamm
v. Tennessee, No. 19-1059. The petition was filed on February 19, 2020. The
State’s response is currently due on March 27, 2020. Petitioner does not oppose
this request.
This is the State of Tennessee’s first request for an extension of time.
The extension is needed because the State’s counsel of record, Sarah K.
Campbell, has significant oral argument and briefing obligations near the
current deadline, including an oral argument in Holland v. State of Tennessee,
No. W2018-01517-SC-R11-PC (Tenn.) (scheduled for April 1, 2020), and a
petition for certiorari in Thomas v. Bright, No. __-____ (U.S.) (due April 3, 2020,
after a 60-day extension). Moreover, counsel was not involved in the

Scott S. Harris
March 11, 2020
Page 2
proceedings below and needs additional time to review the record and fully
research the relevant legal issues.
Respectfully submitted,
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Counsel of Record
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202-0207
(615) 532-6026
sarah.campbell@ag.tn.gov
cc: Ilana H. Eisenstein (Counsel for Petitioners)

CERTIFICATE OF SERVICE
I, Sarah K. Campbell, a member of the Supreme Court Bar, hereby
certify that on March 11, 2020, a copy of the attached letter requesting an
extension of time within which to file the State of Tennessee’s response was
served by first-class mail, postage pre-paid, on the following counsel:
Ilana H. Eisenstein
DLA Piper LLP (US)
One Liberty Place
1650 Market St.
Suite 5000
Philadelphia, PA 19103
(215) 656-3300
Ilana.Eisenstein@us.dlapiper.com
A copy of the letter was also sent to counsel electronically on March 11,
2020, at the email address listed above.
/s/ Sarah K. Campbell
SARAH K. CAMPBELL
Associate Solicitor General
P.O. Box 20207
Nashville, TN 37202
(615) 532-6026
sarah.campbell@ag.tn.gov

